<html>
<title> - PROTECTING THOSE WHO PROTECT US: THE BULLETPROOF VEST PARTNERSHIP GRANT PROGRAM</title>
<body><pre>[Senate Hearing 112-351]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-351
 
PROTECTING THOSE WHO PROTECT US: THE BULLETPROOF VEST PARTNERSHIP GRANT 
                                PROGRAM 

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 15, 2012

                               __________

                          Serial No. J-112-60

                               __________

         Printed for the use of the Committee on the Judiciary

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

73-812 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director




























                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    63
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa, 
  prepared statement.............................................    57

                               WITNESSES

Canterbury, Chuck, National President, Grand Lodge, Fraternal 
  Order of Police, Washington, DC................................     7
Maurer, David C., Director, Homeland Security and Justice, U.S. 
  Government Accountability Office, Washington, DC...............     5
Schirling, Michael E., Chief of Police, Burlington Police 
  Department, Burlington, Vermont................................     4

                         QUESTIONS AND ANSWERS

Responses of Chuck Canterbury to questions submitted by Senators 
  Coons, Grassley and Coburn.....................................    26
Responses of Michael E. Schirling to questions submitted by 
  Senator Coburn.................................................    36

                       SUBMISSIONS FOR THE RECORD

Canterbury, Chuck, National President, Grand Lodge, Fraternal 
  Order of Police, Washington, DC, statement.....................    38
Fackler, Jeff G., North America Marketing Manager, E.I. DU Pont 
  De Nemours and Company, Depont Protection Technologies, 
  Richarmond, Virginia, statement................................    44
Fitzgerald, Sheriff Paul H., President, National Sheriffs' 
  Association, Alexandria, Virginia, February 8, 2012, letter....    52
Johnson, William J., Executive Director, National Association of 
  Police Organizations, Arlington, Virginia, statement...........    60
Maurer, David C., Director, Homeland Security and Justice, U.S. 
  Government Accountability Office, Washington, DC, statement....    65
McBride, Ron, (retired Chief), IACP/DePont Kevlar Survivors' 
  Club, Alexandria, Virginia, statement..........................    76
Schirling, Michael E., Chief of Police, Burlington Police 
  Department, Burlington, Vermont, statement.....................    83


PROTECTING THOSE WHO PROTECT US: THE BULLETPROOF VEST PARTNERSHIP GRANT 
                                PROGRAM

                              ----------                              


                      WEDNESDAY, FEBRUARY 15, 2012

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Kohl, Whitehouse, Klobuchar, 
Franken, Blumenthal, and Grassley.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning. We have a distinguished 
foreign visitor in town, the Vice President of China, and I 
have just been advised he is going to be visiting Iowa, and so 
the Senator from Iowa is going to be a few minutes late. He is 
meeting with him, and I understand that.
    I was in Burlington on Monday with Chief Schirling, and now 
we are together in Washington, and I have to figure out where 
we will meet up next week.
    We are going to hear testimony about the Bulletproof Vest 
Partnership grant program and other key programs that provide 
Federal support for the men and women who serve in law 
enforcement. When I worked to introduce and pass the original 
bulletproof vest program in 1998, I joined with then-Senator 
Ben Nighthorse Campbell, a Republican from Colorado--I was the 
Democrat from Vermont. But we both had served in law 
enforcement, and we wanted to join together and make it a 
nonpartisan issue, and we passed it because we wanted to do all 
we could to protect the men and women in law enforcement as 
they are the people who protect all of us. Just as we should 
have the best equipped armed forces in the world and the best 
equipped National Guard units, I believe that our State and 
local law enforcement officers need the best and most modern 
equipment to fulfill their mission and protect us in our 
communities, whether they are large ones or small ones, across 
the country.
    You know, this program originated because we knew we needed 
Federal assistance. This happened after a tragic time when 
several law enforcement officers from Vermont and New Hampshire 
lost their lives bringing a killing rampage by Carl Drega along 
the border between New Hampshire and Vermont to an end. 
Ironically, when that happened, the week that happened, the 
then-Director of the FBI, Louis Freeh, and his family were 
staying with my family and me at our home in Middlesex, 
Vermont. We came back here, and Senator Campbell and I joined 
together to ensure that such basic, life-saving equipment as 
the bulletproof vest would be available to State and local law 
enforcement officers. It was after that that we found how much 
they cost and how few departments had them.
    Now, I would like to say there is no need for this program 
today, but, tragically, law enforcement deaths are on the rise 
again. We discussed this in another context in Burlington on 
Monday. But last year, 177 Federal, State, and local law 
enforcement officers were killed in the line of duty. No one 
should question the sacrifices that our law enforcement 
officers and their families make. While dangers, injuries, and 
death are increasing, State and local law enforcement budgets 
are being cut. Nearly 12,000 police officers and sheriff's 
deputies were laid off last year, and the Department of 
Justice's Office of Community-Oriented Policing Services 
reports that approximately 30,000 law enforcement jobs remain 
unfilled. I bring this up because there is a reason to ask for 
important Federal assistance to State and local law 
enforcement. It is a key investment in public safety. I was 
pleased to see the President's fiscal year 2013 request for the 
bulletproof vest program is consistent with recent 
appropriations.
    During National Police Week in 2008, Detective David Azur 
of Baltimore testified before this Committee. Detective Azur 
was shot at point-blank range in the middle of the chest while 
apprehending a criminal. Every one of us remembers when the 
detective held up the armor plate from the vest that stopped 
the bullet that would have stopped his life. I remember his 
father sitting behind him and the look on his face just 
thinking how differently that could have turned out.
    Since we enacted the original Leahy-Campbell law, the vest 
program has contributed to the purchase of nearly 1 million 
ballistic vests to help protect our law enforcement officers. 
As I said earlier--and I saw Mr. Canterbury nod at this--I wish 
that this equipment was not needed at all, but we know better. 
I am often reminded of the importance of it when I run into 
police officers, whether in Vermont or around the country, and 
they tap their chests and point to the vest.
    I have told others the story of walking down the street in 
Denver, Colorado. A uniformed police officer comes up to me and 
says, ``Are you Senator Leahy?'' And I said, ``Yes, I am.'' He 
just tapped his chest. I heard the thump, thump of the vest, 
and he said, ``Thank you,'' and just walked off. It is kind of 
a nice feeling.
    We are going to hear from two outstanding representatives 
of law enforcement. Chief Michael Schirling of Burlington, 
Vermont, is one of the new generation of law enforcement 
leaders. I believe Vermonters really do look at him with pride. 
And Chuck Canterbury, a person who has served in law 
enforcement for 25 years and I have come to know him well, is 
the president of the National Fraternal Order of Police and a 
good friend. He is a strong voice for the men and women of law 
enforcement around the country. I see Mr. Pasco sitting behind 
him, another strong voice for law enforcement.
    We are also going to hear suggestions from a representative 
of the GAO on how the Department of Justice might further 
improve its distribution of funding. I might say that I do not 
know how Congress would operate without the professionalism of 
the GAO, and I thank you for being here.
    Again, this has never been a partisan issue. Republicans 
and Democrats alike have joined in it. Longstanding Federal 
initiatives like the Violence Against Women Act, the Second 
Chance Act, the Trafficking Victims Protection Act and other 
important programs have traditionally enjoyed strong bipartisan 
support. Senators Mikulski and Shelby, as the bipartisan 
leaders of the key Senate Appropriations Committee 
Subcommittee, and Senators on both sides of the aisle supported 
this program.
    I am holding the hearing today because the Bulletproof Vest 
Partnership Grant Act expires in September, and I want you to 
know I will introduce legislation in the coming weeks to 
reauthorize this program, and I am going to invite all Senators 
in both parties to join me in the effort. The Bulletproof Vest 
Partnership grant program increases officer safety and 
effectiveness, and it is a bipartisan tradition. I hope we can 
proceed to reauthorize the Bulletproof Vest Partnership grant 
program and other important law enforcement measures, and 
Congress will join together with one voice to send a strong, 
clear message to our Nation's law enforcement officers that we 
will do all we can to protect them, as they protect us.
    I would say as an aside that when Senator Campbell was 
here, we always used to joke that in Colorado this was the 
Campbell-Leahy program. In Vermont, it was the Leahy-Campbell 
program. Either way it is a darn good program, and we encourage 
every Senator to support this program for the benefit of law 
enforcement in their State.
    Now, our first witness--and, Senator Franken, thank you for 
being here, and Senator Kohl. Our first witness is Michael 
Schirling, who has been the chief of the Burlington Police 
Department since January of 2008. Previously, when I first knew 
him, he ran the Burlington Police Department's Administrative 
Services Bureau. He oversaw important components, including 
emergency management and homeland security, the Detective 
Services Bureau and training and recruitment. He joined the 
department as a uniformed officer in 1993. In 1999, Chief 
Schirling helped found the Vermont Internet Crimes Against 
Children Task Force and has continued as the coordinator of 
that task force ever since, something we did not have in 
Vermont, and, unfortunately and tragically, we found that 
Vermont needed it as other States did. He has been a State 
leader in computer forensics, co-founder of the Digital 
Forensic Technology Program at Champlain College in Burlington. 
He received his bachelor's degree in political science and his 
master's of education, leadership, and policy development from 
the University of Vermont.
    Chief Schirling, good to have you here. Please go ahead, 
sir.

STATEMENT OF MICHAEL E. SCHIRLING, CHIEF OF POLICE, BURLINGTON 
             POLICE DEPARTMENT, BURLINGTON, VERMONT

    Chief Schirling. Thank you, Mr. Chairman. Good morning. 
Good morning, Senators. It is a pleasure to be with you again.
    As the Chairman indicated, my name is Michael Schirling. I 
have the privilege of serving as the chief of police for the 
city of Burlington, Vermont.
    Burlington is a community of about 40,000, located on the 
eastern shores of Lake Champlain about 35 miles south of the 
Canadian border. It is a small city by national standards, but 
one that shares in all of the challenges of contemporary 
government and contemporary law enforcement. It is the central 
hub of activity, education, commerce, and services for 
northwestern Vermont, which encompasses a population of about 
150,000 residents. We have a 147-year history of providing law 
enforcement services to Vermont's largest city and currently do 
that with a staff of about 100 police officers and 36 civilian 
employees.
    Nationally, our 18,000 police departments and 800,000 
police officers, including Burlington, confront increasingly 
complex challenges on our streets and in our neighborhoods. 
Twenty-first century law enforcement stands squarely at the 
crossroads of every contemporary social issue. Each day in the 
United States, law enforcement officers are thrust into a 
myriad of situations in which, despite their best efforts and 
skill, they lack full control of the events as they unfold and 
from time to time with increasing frequency are seriously 
injured or killed. In the roughly 1 million encounters they 
have each day, officers face far more complex and unpredictable 
scenarios than we could have imagined even 10 years ago. This 
results from a wide range of complicating factors including 
offenders released from our prisons, those with intractable 
substance abuse and addiction issues, and some in our 
communities with unmet mental health needs.
    Last year was a tragic one for law enforcement in the 
United States. For the first time, the number of officers 
killed by gunfire exceeded the number killed in traffic 
crashes. The overall number of officers killed in the line of 
duty rose 37 percent in 2010 followed by a 16-percent increase 
in 2011. The Nation's police chiefs are vividly aware that we 
must continually evaluate and develop techniques that will 
protect our officers when confronted by those who will not 
hesitate to injure or even kill them. We owe this to those who 
put their lives on the line every day for the freedoms that we 
cherish in this Nation.
    Among the most basic strategies is the use of bulletproof 
vests. My agency has mandated the wearing of vests for all 
uniformed personnel, and in October of 2011, the International 
Association of Chiefs of Police stated that they believe 
mandatory wear should be a standard for all law enforcement 
agencies. As you are aware, the Attorney General has mandated 
that any agency receiving vest partnership funds must have a 
mandatory-wear policy as well.
    Vests are just one part of the equation. In 2002, the IACP 
Division of State Associations of Chiefs of Police created 
SafeShield, an initiative dedicated to protecting our Nation's 
law enforcement officers and reducing the number of officers 
killed in the line of duty with a target of zero each year. 
With the recent surge in violence against police, there are two 
noteworthy projects underway: The first is Reducing Officer 
Injuries: Developing Policy Responses project, and the other is 
the National Center for the Prevention of Violence Against the 
Police. And there is a little more detail about each of those 
initiatives in my written testimony.
    Federal, State, local, university, and tribal law 
enforcement are doing all we can to protect our communities 
from crime, disorder, and the specter of terrorism. I would be 
remiss if I did not take a moment to recognize the fiscal 
reality that faces our Nation today. We must be smart about the 
projects and initiatives that we choose to fund as our Nation 
works hard to recover from a devastating recession. The safety 
of our Nation's law enforcement officers is such a wise and 
necessary investment. I urge you to continue to fund, continue 
to authorize the Bulletproof Vest Partnership Act.
    Thank you, Mr. Chairman and distinguished Senators, for 
taking testimony on this important topic and for your continued 
leadership and assistance on criminal justice matters and the 
safety of our law enforcement officers nationwide.
    [The prepared statement of Chief Schirling appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, Chief.
    David Maurer is the Director of the Government 
Accountability Office's Homeland Security and Justice Team. He 
directs the GAO's effort to examine and review Department of 
Homeland Security and Department of Justice management 
policies. He has been at the GAO since 1993. He led teams at 
GAO's Natural Resource and Environment Section and also its 
International Affairs and Trade Section. He received a master's 
in science and national resource strategy from the National 
Defense University, a master's in international public policy 
from the University of Michigan, and his undergraduate degree 
in international relations from Michigan State University.
    Mr. Maurer, we are delighted to have you here. Please go 
ahead, sir.

 STATEMENT OF DAVID C. MAURER, DIRECTOR, HOMELAND SECURITY AND 
 JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, WASHINGTON, DC

    Mr. Maurer. Thank you. Good morning, Chairman Leahy and 
other members and staff. I am pleased to be here today to talk 
about the Department of Justice's efforts to support the use of 
body armor by local law enforcement officers.
    Now, in a minute you are going to hear me talk about grants 
management and internal controls. Those things are important to 
someone like me who has spent his career at GAO. But it is also 
important to recognize that body armor saves lives. Wearing a 
bulletproof or a stab-resistant vest helps police officers, 
sheriffs, State troopers, and correctional officers make a 
demanding and sometimes dangerous job safer.
    My statement for the record discusses the findings from our 
report being released today on DOJ's efforts to support body 
armor use and manage the grants it provides for purchasing body 
armor. I will now briefly highlight some of the key points from 
our work.
    First, DOJ is doing several things to support body armor, 
including conducting research, developing new standards, and 
testing for compliance. For example, the National Institute of 
Justice, or NIJ, is in the process of revising standards for 
ballistic-resistant and stab-resistant body armor. NIJ is also 
working to improve the fit and comfort of body armor for the 
estimated 100,000 women who work as law enforcement officers.
    DOJ also provides grant funding to State and local agencies 
through two different programs. The Bulletproof Vest 
Partnership, or BVP, is a very specific program that partially 
reimburses jurisdictions for the cost of body armor, and since 
1999 this program has reimbursed grantees $247 million for the 
purchase of nearly 1 million vests.
    The Justice Assistance Grant, or JAG program, is a broad 
program that provides money that can be used to buy body armor 
along with a wide variety of other criminal justice activities. 
Our work looked at the controls DOJ has in place to ensure that 
grant funds are being spent in compliance with program 
requirements. We found that DOJ has several controls in place 
for both programs, but needs to improve the management in some 
key areas, and I would like to highlight two of the areas we 
found where DOJ needs to improve.
    First, we recommended--and DOJ agreed--that it needed to do 
a better job tracking and reusing funds from grants that have 
closed because no one has sought reimbursement. We found that 
the BVP program currently has $27 million in unused funds from 
closed grants. All of this money can be reused. Given that 
Congress appropriated $24 million for the BVP program for this 
year, the $27 million our work identified could have 
significant benefits. DOJ could use these funds to provide 
additional grants or reduce the amount it requests from 
Congress.
    Second, we found important inconsistencies across the two 
DOJ grant programs that provide funding for body armor. 
Specifically, BVP grant recipients must have a mandatory-wear 
policy. If a police department wants BVP money for bulletproof 
vests, it needs to require officers to wear them. BVP grantees 
are also only allowed to purchase body armor that passes NIJ 
compliance testing.
    However, the JAG program currently does not have these 
requirements. JAG grantees do not need a mandatory-wear policy 
and do not have to purchase NIJ-compliant body armor. This 
creates a potential safety issue for officers, which is why we 
recommended that DOJ establish consistent requirements for both 
programs. DOJ said it would take action to do so.
    The Department's willingness to take prompt action to 
address our recommendations is consistent with its overall 
effort to support the use of body armor. The DOJ staff we met 
with during the course of our review were clearly committed to 
getting better body armor in the hands of State and local law 
enforcement. The results of our work can help improve their 
ability to achieve this important goal.
    Mr. Chairman, thank you for the opportunity to testify this 
morning, and I look forward to your questions.
    [The prepared statement of Mr. Maurer appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, and thank you also for 
mentioning what you did about both the mandatory-wear policy 
and also the fact that if there is extra money there, being 
able to reallocate it.
    Chuck Canterbury is no stranger to this Committee. He is 
the national president of the Fraternal Order of Police. He 
represents the interests of over 330,000 members of law 
enforcement on a whole wide range of issues. He has served as 
president of the FOP since 2003, having been re-elected five 
times. Prior to becoming national president, Mr. Canterbury 
spent over 25 years in law enforcement. He served in the Patrol 
Division, Criminal Investigations Division, Training Division, 
and Operations Bureau of the Horry County Police Department in 
Conway, South Carolina. During his time in the Training 
Division, he certified instruction in basic law enforcement 
firearms, chemical weapons, and pursuit driving. He received 
his undergraduate degree from Coastal Carolina University.
    Mr. Canterbury, delighted to have you here as always. 
Please go ahead, sir.

STATEMENT OF CHUCK CANTERBURY, NATIONAL PRESIDENT, GRAND LODGE, 
           FRATERNAL ORDER OF POLICE, WASHINGTON, DC

    Mr. Canterbury. Thank you for the opportunity to be here 
today. I would like to thank Senator Franken and Senator Kohl 
and other members who will be present I am sure shortly. I want 
to thank you for allowing me to be here this morning to talk 
about this extremely important problem in law enforcement, and 
that is, the purchase of the bulletproof vest program.
    As you stated earlier, sir, you and then-Senator Ben 
Nighthorse Campbell, a former deputy sheriff, proposed a simple 
bill with a very simple goal: to increase the number of law 
enforcement officers wearing soft body armor by creating a 
program to provide matching Federal funds to State or local law 
enforcement agencies of any size seeking to purchase these 
vests.
    The legislation was written to ensure agencies which do not 
provide their officers with soft body armor would be able to do 
so and gave priority to those agencies where crime and violence 
are more prevalent. Additionally, agencies with outdated or 
ineffective body armor were given access to the grant, enabling 
them to upgrade their equipment and give maximum protection to 
their officers.
    There is no legislation, no Government program, no grant or 
public-private partnership that can erase the sad fact that law 
enforcement officers will die. They will die in the line of 
duty at the hands of armed and violent criminals. But this 
program, Mr. Chairman, saves lives.
    On December 23, 1975, Seattle Patrolman Raymond T. Johnson 
was shot. Fortunately, he was wearing soft body armor crafted 
through a partnership with the Department of Defense and the 
Department of Justice, and he survived. Since that shooting, 
the IACP Dupont Survivors Club has certified 3,145 saves. That 
is 3,145 law enforcement officers who went home to their 
families and 3,145 names fewer on the Wall of Remembrance at 
Judiciary Square. I do not know of any other programs that can 
quantify their success so starkly.
    The 1970s was the deadliest decade for law enforcement 
officers, with more than 2,200 officers killed in the line of 
duty. But as soft body armor became more common, more 
affordable, and more comfortable, it vastly improved the safety 
of law enforcement officers. Since 1970, firearm deaths are 
down 44 percent overall, and much of that credit goes to soft 
body armor. This improvement is tempered by the events of last 
year, when 71 law enforcement officers were killed by firearms.
    Overall, we lost 177 officers in the line of duty last 
year, the highest total since 2007. Of these slain heroes, 32 
percent were not wearing their body armor when they died.
    Soft body armor not only provides ballistic protection but 
greatly increases the safety and survivability of other 
injuries from car crashes, physical fights, falls, and other 
trauma. Over the past 10 years, law enforcement officers were 
assaulted nearly 60,000 times in the course of a year, 
resulting in the average of 16,000 injuries. In many cases, 
soft body armor is a factor in these officers' escaping the 
assault without injury or reducing the impact of that injury.
    In many ways, the body armor is the single most important 
and effective piece of equipment a law enforcement officer can 
possess.
    Law enforcement officers are constantly in harm's way. They 
work out of their police vehicle and are expected to go forward 
into the unknown, and most of the time unsupported when they 
do. What these officers do in the critical opening moments of 
an incident will shape the outcome of the incident. These 
officers live or die with what they have at that moment. If 
their equipment is not adequate, the outcome can be 
devastating. Their equipment must include soft body armor that 
is faithfully worn. Armor at the station or in the back of a 
scout car provides no protection.
    Yet, sadly, every year we lose officers in the line of duty 
who were not wearing their armor. We cannot stress to our 
officers enough just how important it is to wear. As the father 
of a police officer, I make sure my son goes to work every day 
wearing his vest.
    To increase the percentage of law enforcement officers that 
are wearing vests, the BVP program now requires officers to 
mandatory-wear vest policies in their Department. The FOP 
supports mandating that every agency have a policy about 
wearing soft body armor, but that policy is best set by the 
agency in conjunction with their collective bargaining unit and 
the rank-and-file officers.
    For instance, it may not be necessary to have a 
plainclothes detective in body armor when he is expected to be 
at his desk. Similarly, a chief or sheriff in uniform on 
official business appearing at a hearing or holding a press 
conference may not be required. But, generally speaking, the 
FOP supports the increased use of body armor.
    Mr. Chairman, in closing, I would like to say that the 
support for this program through the Federal grant program has 
been deteriorating in recent years. Programs like the Edward 
Byrne Memorial Justice Assistance Grant program and the hiring 
program administered by the Office of Community-Oriented 
Policing were once regarded as critical in maintaining the 
Nation's historically low crime rates.
    Members of Congress once held in high regard on law-and-
order issues are now pushing deep and unsustainable cuts to 
these programs at a time when law enforcement agencies are 
facing cuts in manpower and equipment at every level. This is 
not fiscally responsible. It is totally irresponsible.
    We urge you to fund this program and for Congress to 
support you on it, and we thank you for everything that you 
have done personally for the law enforcement community over 
your long career in the Senate.
    Thank you.
    [The prepared statement of Mr. Canterbury appears as a 
submission for the record.]
    Chairman Leahy. Well, thank you, Mr. Canterbury. You can 
tell your son I agree with you. Be sure and wear it. If I had a 
son in law enforcement, I would be--a son or daughter, I would 
be telling them to do exactly that.
    Chief Schirling, when we enacted this vest program, both 
Ben Nighthorse Campbell and I felt strongly that it is 
important that every qualifying jurisdiction gets the funding 
provided by Congress. Then a couple years after we passed it, 
we expanded that to make sure that jurisdictions under 100,000 
people were guaranteed the full 50-percent Federal match before 
funding went to larger jurisdictions. More recently, we have 
worked to make sure that in cases of financial hardship the 
Bureau of Justice Assistance could waive the grant program's 
matching requirement.
    Now, you have to go to the city council and justify your 
budget every year. How would you characterize the assistance 
provided through the Bulletproof Vest Partnership program?
    Chief Schirling. I think I can answer that question very 
simply. It has been an essential component of ensuring that we 
can maintain a robust program to keep officers in current vest 
technology. It is not just about an initial purchase. A 
firearm, for example, may last a police officer an entire 
career, but a vest only has a shelf life of about 5 years, 
depending on how it is exposed to elements and cared for and 
things of that nature.
    So it is an ongoing expense. It is one that is a challenge 
for smaller jurisdictions, and as other challenges continue to 
persist, both funding and operational challenges, the 
assistance in this realm has been essential.
    Chairman Leahy. I think the thing that surprised most 
people--I know it did me when we first got into this--was the 
fact that these vests do wear out. We are used to the fact that 
weapons can last forever, but these can wear out.
    You are chief of the largest city in Vermont, but we are 
largely a rural State. The town I live in is about 1,600 
people, and in land size it is half the size of the District of 
Columbia. But can you tell us how this Federal assistance works 
in rural areas?
    Chief Schirling. I can. It is similar in its impact, I 
believe, in smaller areas as it is in Burlington. I think even 
more so in terms of its impact on the smaller towns' budgets.
    In terms of its operational impact, we have seen over the 
last decade an interesting evolution in the challenges that 
face small urban and rural law enforcement as policing in our 
larger urban areas has become more effective, markedly so in 
many of our larger jurisdictions.
    The issues have really become more diffuse in their 
geographic locations, so the issues that used to be inner-city 
issues in New York or Boston or some of the larger metropolitan 
areas in New England now make their way fully into Vermont as 
drug networks and other problems are spreading.
    Chairman Leahy. The interstate is a double-edged sword, 
isn't it?
    Chief Schirling. It is.
    Chairman Leahy. Mr. Canterbury talked about the mandatory-
wear policy that he implemented, and you, of course, have that 
same policy at the Burlington Police Department. Attorney 
General Holder has implemented the requirement for recipients. 
Tell me, how do the officers feel about this? And be as candid 
as you wish.
    Chief Schirling. A 21st century law enforcement officer for 
the most part understands the need to protect themselves with 
body armor. There are issues that need to be balanced. It is 
not the only piece of equipment that they are carrying. Today 
officers carry between 16 and 20 pounds of additional gear on 
their hips, and we are constantly looking for ways to alleviate 
the strain on their lower backs and hips and the nerves that 
run down the side of their legs as a result of carrying that 
extra weight.
    One of the latest innovations in vest technology in 
addition to the great strides that have been made in the 
content of the vest itself is external vest carriers. So you 
will see in news coverage or maybe in your home towns police 
officers wearing vests that are over their uniform shirts 
instead of under their shirts. They are still contemporary soft 
body armor. They are just in different carriers, and those 
carriers are designed to alleviate some of the weight that is 
being carried on the officers' lower back and around the gun 
belt by moving some of the gear up onto the vest itself and 
then it can hang on the shoulders, which are much better 
equipped to carry that weight than hips are.
    Chairman Leahy. And you do have some flexibility, depending 
upon what the situation would be. We have talked about sitting 
at the desk or things like that.
    Chief Schirling. That is exactly right. With the external 
vest carriers if an officer is in doing 2 or 3 hours of 
paperwork on an arrest that was just made, they can take that 
carrier off and place it on the desk next to them and relieve 
all of that weight and all of the heat that is associated with 
wearing the vest for that period of time that they are doing 
paperwork.
    Chairman Leahy. Well, this goes into a little bit about 
what Mr. Maurer talked about, the fit and the durability of 
ballistic vests. Obviously, certainly I have seen a lot of 
advances. We recognize the fact we have a lot of women as 
police officers. Do you have any recommendations you would like 
to make? You mentioned this outside wear. Do you have any other 
recommendations?
    Chief Schirling. I think continuing to explore better fit 
and better material and more effective vests, stab-resistant 
vests, vests that are thinner and lighter, and all of those 
things have been evolving over the last 20 years. If I were to 
have brought my original vest from roughly 20 years ago, its 
thickness and weight and its ability to move as I moved would 
bear no resemblance to the vest that I was issued just 2 or 3 
years ago, which is much thinner, much lighter, has a much 
greater range of movement, and is a lot more viable as 
something that is worn for a 10-hour shift; and in the case of 
many officers, they are not controlling what is happening at 
the end of the shift, so an 8- or 10- hour shift or a 12-hour 
shift often go longer than that. So it is a fairly long time to 
wear a piece of equipment, and those evolutions, both for male 
officers and the evolutions in design for female officers, have 
made things more comfortable. But I think the further we get 
down the road of vest innovation, the more comfortable things 
will become.
    Chairman Leahy. It is interesting because I remember 
issuing and getting search warrants for police to make a raid. 
I remember what they had: basically big steel plates to wear. I 
do not know how they even moved in them back then. That was a 
million years ago. You and I had the privilege of bringing the 
FBI Director, Bob Mueller, through the Burlington Police 
Department, and I recall some of the pictures--some of them I 
still chuckle about--showing the old equipment we had then.
    I would tell my colleagues, one of the things I think Chief 
Schirling is smiling about, when I was State's attorney, I used 
to go out every year to the police outdoor pistol range and 
qualify with them, and they had a picture of me there. Mr. 
Mueller is--the chief somehow found this in the archives, and 
not only did I have hair, but I had long sideburns. But I also 
qualified each time.
    I will have other questions for the other members of the 
panel afterward, but let me yield to Senator Kohl.
    Senator Kohl. Thank you, Mr. Chairman. Thanks for holding 
this hearing today. We owe our law enforcement officers a very 
great debt of gratitude for their work--the work that they do 
every day keeping our communities safe and enforcing the laws.
    I was a strong supporter of the Bulletproof Vest 
Partnership Act in 1999, and I am pleased that it continues to 
have an impact on the safety of our law enforcement officers. I 
will, of course, be supporting the reauthorization of this 
legislation and ensuring that we fund it at an adequate level. 
We need to do everything we can for the men and women who risk 
their lives to protect us.
    There is no question that bulletproof vests save lives. For 
instance, last March, a 9-year veteran of the Fond du Lac, 
Wisconsin, Police Department was shot twice in the chest as he 
responded to a call. Fortunately, the officer had chosen to 
wear a bulletproof vest even though his department did not 
require it, and the vest saved his life.
    I believe that no officer should be without a bulletproof 
vest. We need to do all we can to ensure that all 
jurisdictions, large and small, are able to buy them. We also 
need to ensure that the vests fit well and that they are 
comfortable enough for officers to wear them. These vests, in 
my opinion, are a fundamental part of keeping officers safe in 
the line of duty, and so the Federal Government needs to help 
State and local law enforcement provide this essential 
equipment to their officers.
    I would like to ask each one of you: Do you believe that 
just as officers wear all the necessary equipment that you have 
described today, they should also wear--in the line of duty 
when they are out there in the field, they also should be 
required to wear a bulletproof vest? Chief?
    Chief Schirling. Senator, thank you for the question. I 
think the answer is absolutely yes. Not only should they be 
wearing, in my opinion, soft body armor in their day-to-day 
operations, but anytime we go to a known threat scenario, we 
should do everything possible to deliver the next stage of 
armor, an external larger carrier that protects against an 
additional threat level, a more tactical vest. And I am not 
suggesting that relates directly to the Vest Partnership, but 
in some regard it does because in our case it frees up the 
limited resources that we do have so we can buy additional 
armor that they can wear when faced with a known armed 
assailant.
    Senator Kohl. But they should be required?
    Chief Schirling. Absolutely.
    Senator Kohl. Mr. Maurer.
    Mr. Maurer. Yes, the mandatory-wear policy that the 
Attorney General has in place is a good measure, in our view. 
It helps protect lives. One of the things that we recommend in 
our report, obviously, is that DOJ explore expanding this 
requirement to the JAG program as well. We are concerned that 
jurisdictions may be purchasing bulletproof vests with JAG 
money where they do not have mandatory-wear policies and where 
they do not meet NIJ compliance.
    Senator Kohl. Thank you.
    Mr. Canterbury.
    Mr. Canterbury. Senator, we support mandatory-wear policies 
as long as they take into consideration undercover operations, 
inside work. You know, a lot of these are governed by 
collective bargaining agreements. But for the police officer on 
the street engaged in active law enforcement and the acts of 
apprehension, yes, sir, we support mandatory wear.
    Senator Kohl. All right. And I agree with that. But if we 
are going to do that, how can we not provide the equipment? In 
many places--what?--the officer is supposed to pay himself? Can 
we on the one hand say you must wear this piece of equipment 
and on the other hand not provide it to him or her? How does 
that work, sir?
    Chief Schirling. I should qualify my remarks that I agree 
with Mr. Canterbury that there are scenarios where wearing the 
vest, like in an undercover operation, may actually compromise 
the officer's safety, so I am talking about uniformed officers 
in the standard course of duty.
    Senator Kohl. Yes.
    Chief Schirling. I think you are right that, without 
assistance, many of the 18,000 law enforcement agencies in the 
United States would not be able to afford to provide vests for 
their officers. The first bulletproof vest that I purchased in 
Burlington in 1989, I purchased with my own funds. We did not 
have the money to--we did not have the money at the time to 
issue pads and pens. You went to the drugstore to get your pads 
and pens for your uniform. A lot has changed since then, but 
there is still a long way to go in terms of resource 
availability. And with changing technology, the need, again, to 
replace things, to keep them contemporary against the 
contemporary threats that we face is just as challenging.
    Senator Kohl. Mr. Maurer, if we are not going to provide 
the money, how can we insist that the officer wear the 
equipment?
    Mr. Maurer. I think you are absolutely right. If there is a 
requirement that the officers wear this type of equipment, it 
should be something that is purchased for them. They should not 
have to cover the costs out of their own pockets. Obviously, 
the policy issue is whether those funds come from Federal, 
State, and local, and on that, you know, GAO is going to be 
agnostic on that point. But we do think it is important that if 
it is going to be a requirement of the day-to-day 
responsibilities, it should be provided for the officers.
    Senator Kohl. Mr. Canterbury.
    Mr. Canterbury. With the average police department being 
ten men or less in the United States--and that is the non-
gender-specific ``men''--we would not have them. I purchased my 
first one in 1979. It took a considerable amount of my $7,600 a 
year salary to purchase a $400 vest. But my family thought it 
was important, and we struggled for it.
    I have agencies in my county now that are currently wearing 
expired vests from my agency, and we see a lot of that. And 
during the Iraq conflict, many police agencies were sending 
their used, out-of-date vests to the Iraqi police academies. 
So, you know, some protection is better than none.
    So without Federal Government assistance, this program will 
not continue at the State and local level, period.
    Senator Kohl. So you think, one, we should have that 
mandatory wear, but, No. 2, in order for that to occur, the 
Federal Government is going to have to do a large part of the 
financing?
    Mr. Canterbury. I think without the Federal Government 
financing the program, vest wear will go down considerably 
across the country. And as I said earlier, we do support a 
mandatory-wear policy, provided, however, you have the proper 
exclusions for when it is necessary or when it is not needed.
    Senator Kohl. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you, Senator Kohl.
    Senator Blumenthal, And I should also note he is a former 
Attorney General of his State.
    Senator Blumenthal. Thank you, Mr. Chairman, and thank you 
all for being here today.
    In particular, Chief Schirling, thank you for your service 
in Vermont in the beautiful city of Burlington, which I have 
been privileged to visit. And thank you, Mr. Canterbury, for 
your service in South Carolina. And I am interested in your 
opinion, very valuable to this Committee, on the mandatory-wear 
policy, but as Attorney General, we actually investigated a 
number of deficiencies that occurred in the production of this 
body armor, deficiencies relating to the expiration or 
reduction in its effectiveness before the date that it was 
supposed to do. And I wonder if you could comment, particularly 
Chief Schirling and Mr. Canterbury--and, Mr. Maurer, if you 
have any observations--on problems that have arisen and 
possibly the need for better testing and earlier replacement of 
this body armor so we do not rely on it past the point when it 
has been effective. And it really has helped save lives in 
Connecticut and around the country, as you know better than I. 
So I would welcome your comments on that point.
    Mr. Canterbury. The National Fraternal Order of Police has 
supported the NIJ guidelines going back before there were 
guidelines. Many years ago, there was a company that had 
manipulated their statistics, and we called for a criminal 
investigation of that company, as well as NIJ standards, and 
NIJ has produced vests that are a little bit thicker than some 
of the vests that were produced prior to NIJ standards, but 
traditional testing on those vests proved that they were not 
adequate. So we very much support the NIJ standards. They have 
used a lot of local law enforcement in their work with 
wearability. Obviously, if you wanted to stop a round, you 
could build a vest big enough to stop just about anything out 
there, but it would not be functional. So the NIJ standards we 
believe have been very helpful.
    Chief Schirling. Thank you for the question, Senator. We 
would welcome you back to Burlington anytime you want to visit.
    Senator Blumenthal. Thank you. I have to consult my 
Chairman first before I go back to Vermont.
    [Laughter.]
    Chief Schirling. I would concur with Mr. Canterbury. We as 
an agency our size, which is relatively large by national 
standards, rely heavily on NIJ and other testing done by 
Federal agencies like the FBI on vests to know whether what is 
being advertised is accurate. Really the best we can hope for 
in terms of testing is after the fact. When we retire a vest, 
hopefully after the recommended 5-year life span, we 
occasionally take a vest out to the training range and will 
fire our duty rounds into it to test its efficiency or 
efficacy. And to date, I am happy to report that I do not think 
we have found issues with too much penetration beyond what was 
advertised during those random tests.
    Senator Blumenthal. Mr. Maurer.
    Mr. Maurer. Yes, we found that there is a lot going on at 
NIJ and its partners across the Federal Government on these 
important issues. NIJ is working with the Defense Department, 
for example, trying to gain the benefit of their experience 
with body armor from a military context and applying that to 
the law enforcement context, and there are issues associated 
with wear and fit.
    We also found that NIJ does these compliance tests to make 
sure that manufactured body armor meets the standards, and 
these are not rubber stamps. We found that in about half the 
cases the vests were failing the tests, and that was actually a 
good sign to us that these were stringent tests. And that is 
important for law enforcement to make sure that when something 
is NIJ compliant, they have gone through some standard and 
rigorous testing.
    Senator Blumenthal. We, by the way, settled the cases and 
the investigations involving these companies to the benefit of 
our police departments in Connecticut. But I think it 
highlights the need for this continued regimen of testing and 
vigilance to make sure that the body armor actually works, 
because it may actually be counterproductive to have body 
armor, obviously, as you know, that is relied on and then does 
not work.
    Do you find, Mr. Canterbury, because you raised the issue 
of collective bargaining and so forth, increasing acceptance of 
body armor as necessary to wear? Or is there still some 
resistance to it?
    Mr. Canterbury. Senator, I believe that without collective 
bargaining agreements, many of our agencies would not have 
vests today. It is the officers who bring those safety issues 
into question. When I first asked for a ballistic vest for my 
department, the question I got from a 30-year veteran chief 
was, ``Are you scared to do your job? '' And I said, ``No. But 
I want to go home to my family.''
    So I think actually the unions have greatly increased the 
use of safety equipment and probably were more of a catalyst to 
them becoming widely accepted than anything out there.
    Senator Blumenthal. Well, I would agree with you on the 
basis of my limited experience, and thank you for that 
observation.
    Thank you all for your great work, and thank you for your 
testimony.
    Chairman Leahy. I should note, Senator Blumenthal, you are 
welcome in Vermont anytime. I suspect if you went to the 
Burlington Police Department, Chief Schirling would not resist 
the temptation to show you those old photographs.
    Senator Blumenthal. That may be worth the trip.
    [Laughter.]
    Chairman Leahy. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman, for holding this 
hearing. I am a strong supporter of the Bulletproof Vests 
Partnership program whose vests save lives. I will give an 
example. Fairmont, Minnesota, is a relatively small town of 
about 10,000 people just north of the Iowa border. It is a 
tight-knit community.
    On October 26, 2010, Fairmont police officer Chad Sanow 
finished dinner with his wife and kids and then left for work. 
Shortly thereafter, he responded to a call for a fire, a house 
fire. It turned out to be an ambush. A gunman was hiding among 
the flames. Officer Sanow was shot in the chest during the 
encounter.
    Two amazing things happened next. First, Officer Sanow 
received a call from his wife, and in the midst of the chaos, 
he answered the phone. He later said, ``I knew I should not 
have answered it, but I did not know how bad my injuries were, 
and I wanted to talk to her because what if I did not make it 
and I wanted to hear her voice.''
    The other amazing thing was Officer Sanow survived. He was 
wearing a bulletproof vest the Fairmont Police Department had 
obtained through the BVP program; otherwise, he would have 
died. His lieutenant later said that the bulletproof vest 
absolutely saved Sanow's life. Officer Sanow walked away with a 
deep purple bruise on his chest, and that is what this program 
is all about.
    Last year, about 180 towns in Minnesota acquired more than 
2,500 bulletproof vests through the BVP program. When I think 
of the BVP program, I do not think of statistics. I think about 
this story and I think of people like Officer Sanow.
    Not long after the shooting, Officer Sanow said that he 
wears his bulletproof vest for his family because ``every night 
I want to be able to tuck my kids into bed.'' I think you said 
that or something very similar, Officer Canterbury. And he 
said, ``I want to share that meal at supper.''
    Officer Sanow has been keeping his community safe for more 
than 15 years, and we are blessed that he is still with us and 
serving the people of Fairmont.
    Mr. Canterbury, you brought up the issue of wearability, 
and I think this is an interesting issue, which is that at a 
certain point you reach a point of diminishing returns. As you 
were saying, you can create something thick enough to stop 
anything. But it is really important that these things be 
comfortable enough that it does not incentivize not wearing it, 
right?
    Mr. Canterbury. Yes, sir, absolutely, especially in high-
humidity situations, temperatures that you have in Phoenix 
every day in the summer, comfort and wearability are essential. 
They could be dangerous at some point with those kind of high-
temperature situations if you did not have the NIJ testing and 
other ways for officers to--in those agencies, I believe the 
over-the-shirt vests work very well because at least when they 
are in their car they can loosen them, get air under them. When 
you are wearing that under your shirt and over a T-shirt and 
many times another shirt to keep it off your skin, it makes it 
very difficult. So the industry has done well to come up with 
new ways.
    Senator Franken. When assessing the effectiveness of it, 
that wearability issue is actually an issue because it is 
counterproductive if you do not wear it.
    Mr. Canterbury. Absolutely.
    Senator Franken. Last week, I introduced the Local 
Courthouse Safety Act to codify the Justice Department's Valor 
Initiative, which provides training and technical assistance to 
local law enforcement personnel and teaching them how to 
anticipate and prevent violent incidents. For example, the 
Valor Initiative teaches officers how to detect concealed 
weapons and to identify potential gunmen.
    Mr. Canterbury, I understand you have served as a training 
division supervisor with your police force. Do you agree that 
training is an important component of officer safety?
    Mr. Canterbury. The most essential part of officer safety, 
and, unfortunately, it is the first thing cut when money gets 
tight. So without programs like BVP, the next thing that is 
going to be cut is officer training. It is the first and 
easiest thing to stop in a budget.
    Senator Franken. And you talked about those critical 
opening moments of an incident. This is one of the reasons I 
support the Mentally Ill Offender Treatment and Crime Reduction 
Act. You are familiar with that. People with mental illnesses 
are disproportionately caught up in the criminal justice 
system, and encounters with this population present a unique 
set of challenges for police.
    The Mentally Ill Offender Treatment and Crime Reduction Act 
helps local police develop models for responding to incidents 
involving the mentally ill. Mr. Schirling, do you agree that 
specialized training for police can reduce injuries to not just 
officers but civilians during encounters with mentally ill 
individuals? And can you speak to the importance of that 
program?
    Chief Schirling. I do believe that is true, Senator. I 
think that is an excellent topic for discussion here in 2012. 
One of the most challenging things that our officers face day 
to day is events in which people with unmet needs in the realm 
of mental health are acting out in some fashion. And as State 
budgets continue to be reduced, services and programs for folks 
that suffer from mental illness are eroding, and when all else 
fails, the last resort is the three-digit phone number. It is 
9-1-1. And the situations can be very unpredictable, and they 
can be very challenging to deal with. And we are spending a 
great deal of effort training law enforcement and building 
additional capacity through street outreach and intervention. 
It is working with law enforcement agencies and things of that 
nature to try to ensure that we can de-escalate those scenarios 
before a bulletproof vest becomes the last line of defense, or 
vice versa, that someone with a mental illness who is there not 
by their own choosing ends up injured or worse as a result of 
an encounter with law enforcement.
    So it is a huge challenge in an area where we need to spend 
significant focus.
    Senator Franken. Thank you, and thank you all for your 
testimony and thank you all for your work.
    Thank you, Mr. Chairman.
    Chairman Leahy. And we have been joined by the Ranking 
Member, Senator Grassley. I will yield to you.
    Senator Grassley. Thank you very much. I know it is not 
very courteous, my not being here, but I think the Chairman 
told you why I was not. And, besides, there were three other 
Committee meetings scheduled in these morning hours, so forgive 
me.
    I am going to put a statement in the record, but I want to 
refer to one paragraph from it. Officer safety is paramount, 
and we should do all we can to make sure officers on the 
streets have body armor. However, we must also ensure that 
taxpayers' dollars are monitored and managed effectively by the 
Justice Department. We can and must do both. Reauthorizing this 
program affords us that opportunity.
    [The prepared statement of Senator Grassley appears as a 
submission for the record.]
    Senator Grassley. Mr. Maurer, the report released today by 
GAO found that the Justice Department has been carrying forward 
a significant balance in this partnership program. Your audit 
found that $27 million dating back to fiscal year 2002 is 
currently held by the program. On top of that, GAO found that 
$14 million was previously deobligated from the program in 2009 
and used to pay off a Congressional rescission to the 
Department's budget. That is $41 million that could have been 
used to purchase vests for law enforcement agencies. Coupled 
with the program's matching requirement, it could have funded 
up to $82 million worth of vests.
    So, Mr. Maurer, was GAO able to determine why the 
Department continues to carry over such a balance despite 
annual appropriations?
    Mr. Maurer. Yes, we talked to the Department of Justice 
about that, and in a nutshell, this is unfortunately not 
unusual in grant programs, not just at DOJ but across all the 
Government.
    Back in 2008, we issued a report talking about undisbursed 
grant balances, and at that time we found about $1 billion of 
funds like these that were sitting around basically unused. And 
what ends up happening is that awards are made, and for a 
variety of reasons they are never actually acted on. And so the 
money builds up over a period of time.
    Senator Grassley. A couple together here. Was the 
Department even aware that they were carrying such large 
balances before you pointed out? And when asked about the 
money, what did the Department say it planned to do with it?
    Mr. Maurer. Yes, when we talked to the Department about it, 
they were aware of these balances. Over the period of years, 
they were re-extending the grant award timeframes so that if 
localities had not used the money, they kept them active within 
the program.
    We also asked them about their plans in addressing this 
going forward, and they said they are going to act on our 
recommendation to take action to actually use these funds.
    Our point of departure on this is that, you know, whether 
you use these funds to purchase more bulletproof vests or use 
it to offset future appropriations, it does not serve anyone's 
interest to have it sitting in a DOJ account not doing 
anything.
    Senator Grassley. OK. Your report includes a recommendation 
that the Department deobligate the $27 million. It also notes 
that the Department concurred with the recommendations and ``in 
the absence of statutory restrictions stating otherwise, it 
intends to use the deobligated, undisbursed BVP program funds 
to supplement the appropriation amounts in fiscal year 2012 and 
2013.''
    Did the Department indicate if this was to buy more vests 
or whether they would use it to pay down more rescissions?
    Mr. Maurer. My understanding of their response--and you can 
ask the Department this directly--is that their plan was to use 
it to purchase more vests. However, what you have read is what 
they provided us in writing.
    Senator Grassley. Were agencies that should be reimbursed 
never awarded funding?
    Mr. Maurer. My understanding is that did not happen.
    Senator Grassley. In your opinion, should Congress stop 
providing no-year money for this program?
    Mr. Maurer. I think that is a legitimate policy issue for 
Congress to consider, and we would be happy--I think our report 
helps inform those decisions, but we are not going to take a 
position on whether it should continue to be no-year funding or 
not.
    Senator Grassley. Bulletproof and stab-proof vests that 
save the lives of our law enforcement officers are a very 
worthy use of our dollars. However, given the current fiscal 
situation, we must ensure that the program is operated as 
efficiently as possible. Based upon your testimony, it appears 
that money for body armor has not been used efficiently because 
the money is funneled through two different Department of 
Justice grant programs, each with different requirements for 
the recipients. As a result, funds from both programs for the 
same purpose may have been provided to the same recipients, and 
some vests bought with that money may not be up to the best 
standards.
    Of the two DOJ grant programs that provide funds for the 
purchase of vests, only the Bulletproof Vest Partnership, BVP, 
grant program has appropriate safeguards to ensure that the 
funds are used appropriately, such as 50-percent match. The GAO 
has stated--and I agree--that the matching requirements are 
crucial to ensure that grantees take care to use grant funds 
efficiently. Byrne/JAG grantees who use funds for vests do not 
have matching requirements.
    More concerning, there is no guarantee that recipients of 
Byrne/JAG grants did not use those funds to pay for the match 
requirements of Bulletproof Vest partnership programs, and 
Byrne/JAG grantees are not required to buy vests that meet 
DOJ's own standards for quality and are not required to make 
sure that their officers actually wear the vests.
    Another difference is that the Bulletproof Vest Partnership 
grant program requires that grantees make their purchases 
before being reimbursed while the JAG programs provide grantee 
money up front.
    Why does Justice operate these programs differently? And 
what would be the benefits of combining the programs? And, 
second, does DOJ know how many grantees receive money from both 
of these programs in any given fiscal year? And do you know?
    Mr. Maurer. I will answer your last question first. GAO 
does not know nor does DOJ know all the recipients that have 
received funding through the JAG program for purchase of body 
armor, nor are they required to do so. I think that is 
important to point that out as well.
    The JAG program is a very broad program. It is a formula 
grant program. States and localities can use it for a wide 
variety of purposes, and there is no requirement that they 
report back to the Department of Justice specifically what they 
are doing with every dollar spent on that program.
    Obviously, BVP is different. It is a very specific and 
targeted program designed specifically for body armor.
    Senator Grassley. This will have to be my last question. 
What changes to the Bulletproof Vest Partnership Act would you 
suggest to account for these problems or other issues that you 
discovered in the course of your audit?
    Mr. Maurer. We think it is important for the Department to 
act on all the recommendations in our report, and whether that 
is handed through statute or through the Department's own 
policies we will leave to the Congress and to the Department to 
work out. But I think as a general proposition, it is important 
that all Department of Justice grant money that is used for the 
purchase of body armor be used to purchase NIJ-compliant body 
armor, that it meets standards, and that it goes to 
jurisdictions that have mandatory-wear policies in place. We 
would like to see that consistency.
    Senator Grassley. Quickly, could savings be achieved by 
consolidating the duplication between these two programs?
    Mr. Maurer. Again, I think that is something for the 
Congress to work out.
    Senator Grassley. Thank you.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you, Senator Grassley.
    In keeping with having former prosecutors here, we have 
Senator Klobuchar of Minnesota.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you to all three of the witnesses. I may be the last one to 
speak, so I am the only thing that stands between you and 
lunch, I guess, and I want to particularly thank Chief 
Schirling.
    I was very surprised that you would have a chief from 
Vermont here on this panel. You know, we are 50 States.
    Chairman Leahy. We picked them alphabetically starting with 
``V.''
    Senator Klobuchar. All right. Very good.
    Also, Director Maurer and Mr. Canterbury, thank you for 
your work on behalf of the brave men and women that put 
themselves on the line every single day. The most moving thing 
I have seen in the last year was, sadly, a funeral for one of 
the fallen officers. Someone who had responded to a domestic 
violence call was shot in the head, so a vest would not have 
helped in this case. And being there at that funeral and seeing 
his widow with the three little children, two little boys and 
this girl with this bright blue dress on, walk down that aisle 
of that church was something I am never going to forget. And so 
it reminded me day in and day out how they are putting their 
lives on the line, and we have to do every single thing to help 
them. So thank you so much for your work.
    My first question was actually just about some of the 
statistics and what has been going on. In 2011, 71 police 
officers nationwide were killed by firearms, which is the 
highest number since 2007, and up 20 percent from 2010s total 
of 59. Do you think there are any factors that are contributing 
to this? Is there some kind of trend here? Is there any issue 
with the bulletproof vests, or is it just a statistical 
aberration? What do you think? Do you have any insight on what 
is going on? Mr. Canterbury, if you want to start.
    Mr. Canterbury. A lot of research is being done on that, 
and we do not know. We are dealing with our international 
partners as well, and violence is up all over the world against 
law enforcement. New Zealand, for instance, where police 
officers do not carry, had two officers killed in the line of 
duty by firearms last year. So we are in a lot of discussions. 
I know that IACP and a number of the other groups are trying to 
look at the statistics on assaults and see.
    Obviously, we think economic conditions play a role at some 
point, but we are hoping it was just an anomaly.
    Senator Klobuchar. OK. Anyone else? Director?
    Mr. Maurer. We did not study that particular issue, but one 
of the things we did come across in our reviews was a RAND 
study that looked at the use of bulletproof vests and found 
that when officers are wearing bulletproof vests and if they 
are actually shot in the torso, they are almost 4 times as 
likely to survive. So it is a really important part of their 
equipment. Also, in their study they found no cases where there 
was actually a penetration of the bulletproof vest, so that is 
indicative of the quality of what is being provided.
    Senator Klobuchar. According to a National Law Enforcement 
Officers Memorial Fund report, in 2011 nine of the police 
officers killed by the firearms were killed while responding to 
domestic disturbances. This is an issue that resonates with me. 
We are trying very hard to move the VAWA reauthorization to the 
floor, and I guess my question is more about that. Are officers 
at some police departments required to wear vests while 
responding to domestic disturbance calls? Why are these calls 
more dangerous? And do you have any insight on that? I do not 
know if you wanted to answer that one, Chief?
    Chief Schirling. Certainly, Senator. Thank you. Domestic 
violence calls are historically an enhanced risk scenario. I 
think moreover, though, to weave this into your last question 
as well, we are facing, I think, increasingly complex 
circumstances on the street, and there are a variety of things 
feeding that: an increase in substance abuse, more intractable 
alcohol and addiction-related issues, an increase in the number 
of contacts with people with underlying mental illness, and an 
increasing number of folks who are in sort of overall crisis 
for a variety of reasons that are often co-occurring at the 
same time. And I think that is leading to more violent 
encounters and ultimately more officers killed. And domestic 
violence is certainly a thread in there.
    Chairman had a press conference in Vermont on Monday 
regarding VAWA funding, and one of the themes that we discussed 
there was the fact that in the last 15 years in Vermont, 51 
percent of the homicides that have occurred were domestic 
violence related. So that level of violence translates directly 
to, I believe, the encounters that law enforcement officers 
have with alleged perpetrators of domestic violence, that there 
is just an enhanced risk that goes with that in all of those 
events.
    Senator Klobuchar. Very good. You mentioned drugs. I just 
cannot--I am obsessed with this right now. It is a little off 
topic, and no one is here so that is good. Have you seen an 
increase with synthetic drugs in Vermont like we have seen in 
Minnesota?
    Chief Schirling. I am going to knock on wood because we 
have not. Our pervasive issue is addiction to prescription 
opiates.
    Senator Klobuchar. Right.
    Chief Schirling. It is rampant, and it is driving crime, it 
is driving violence, it is driving everything right now.
    Senator Klobuchar. Yes, and Senator Cornyn and I worked on 
a prescription take-back to try to make it easier for people to 
get things out of their medicine cabinets, and I know that is 
not the only solution, but we passed that and have been pushing 
to get the rules developed with DEA.
    Anyone else want to comment on the synthetics?
    Mr. Canterbury.
    Mr. Canterbury. In my home State, synthetics have been a 
problem. But just like the chief, it is prescription medication 
along with the ability to make cheap, quick methamphetamine. 
That is still a problem. The ingredients are different at 
times, which make them much more dangerous.
    Senator Klobuchar. OK. This is a question I bet you were 
not asked by my fellow Senators. This is about women and 
bulletproof vests. More and more women are entering law 
enforcement. In fact, I recommended and the President appointed 
our first woman Federal Marshal in Minnesota, and she was the 
deputy police chief in the Minneapolis Police Department.
    We have received testimony in the record that suggests that 
female officers may not be getting bulletproof vests that fit 
properly and that they may be hesitant to requests vests made 
for women because those vests cost more.
    We have also received testimony that suggests that officers 
may be less likely to wear their vests when the vests did not 
fit properly.
    Could you talk more about these dynamics and what is the 
issue and the impact on female law enforcement? Director?
    Mr. Maurer. Yes, we looked at that issue specifically as 
part of our review, and it is certainly one of the major issues 
that NIJ is studying right now. There are 100,000 female law 
enforcement officers in this country right now, so obviously 
having body armor that fits and that works is certainly in 
everyone's best interest.
    Manufacturers are starting to rise to this challenge, but 
they definitely point to some--it is not an easy thing for them 
to do. They have to provide more contoured body armor for a 
female officer than for a male officer, and that creates 
technical challenges because there are more seams in the body 
armor and that makes it more difficult to produce something 
that is protective.
    But you are absolutely right. It needs to be comfortable, 
and it needs to fit well for an officer to have the right 
incentive to use it every single day in the line of duty.
    Senator Klobuchar. Thank you. Anyone else? Chief?
    Chief Schirling. Thanks for that question, Senator. We 
actually did address that earlier, surprisingly.
    Senator Klobuchar. Oh, you did?
    Chief Schirling. We did, briefly.
    Senator Klobuchar. Sorry. I was at a farm hearing, but you 
do not want to know all the details on that.
    [Laughter.]
    Chief Schirling. Happy to go back through it, though, and 
actually add some additional detail. About 20 percent of our 
officers are female, a little bit higher than the national 
average, and we are doing all we can to do custom fitting. But 
one of the things we are also exploring the use of is external 
vest carriers, which do not require quite as much tailoring so 
that a uniform shirt has to go over them. The shirt is worn, 
and then the external carrier is worn over that. There are a 
variety of potential benefits, including relieving weight from 
hips and duty belts as well.
    So there is a lot of work being done in terms of enhancing 
comfort, not just for female officers but for all officers in 
this area.
    Senator Klobuchar. All right. Anything more? Mr. 
Canterbury?
    Mr. Canterbury. There is a lot of other equipment that 
needs to be tailored for our female officers.
    Senator Klobuchar. Kind of like the chairs in the Judiciary 
Committee room. That is why I moved over so I could see.
    [Laughter.]
    Mr. Canterbury. The gun belts, the uniform pants, but since 
my start in the career to today, that has changed dramatically. 
But there are a lot of those issues that we need to address. 
But I think the new technology is helping some, and they do 
cost a little bit more, but it is just required.
    Senator Klobuchar. All right. Well, very good. Thank you to 
all of you for your testimony. Thank you.
    Chairman Leahy. Thank you. And you do not have to be a 
former prosecutor to serve on this Committee, but it does help, 
and we have one more, Senator Whitehouse of Rhode Island, who 
was both a U.S. Attorney and Attorney General of his State. I 
am going to turn the gavel over to him while I step back out of 
the room to another meeting.
    Senator Whitehouse. Shall I recess at the end of my 
questioning or do you----
    Chairman Leahy. If there is nobody else here.
    Senator Whitehouse. Very well.
    Chairman Leahy. Although, if I might, with your indulgence, 
I would ask Mr. Maurer just so we have it on the record: You 
know the DOJ has not deobligated the $27 million funds which we 
talked about earlier. I agree with GAO's recommendation that 
the Department could use these funds for new grant awards. You 
said the Department plans to use these funds to supplement 
appropriations in fiscal years 2012 and 2013. Do you believe--
and I assume you do--that the Department of Justice is capable 
of responding to your recommendations?
    Mr. Maurer. Yes, we believe they are capable of responding 
to our recommendation.
    Chairman Leahy. And, President Canterbury, I think you 
would agree that this program itself has raised the awareness 
of the need for the use of bulletproof vests by police 
officers. Would you agree with that?
    Mr. Canterbury. Absolutely, Senator, and we applaud you for 
continuing to have these hearings so that we can--you know, we 
do not like to advertise the use of bulletproof vests on the 
street. We do not want people to know we are wearing them. But, 
you know, without this type of funding, they will go back to 
doing bake sales and car washes to provide them.
    Chairman Leahy. And I have told you privately before about 
the police officer in Denver tapping his chest and what he said 
to me, and that is one of the things I will remember all the 
time I am in the Senate.
    Senator Whitehouse.
    Senator Whitehouse. [Presiding.] Thank you very much, 
Chairman, and thank you for holding this hearing. I appreciate 
the testimony of all the witnesses.
    We lost 160 police officers in 2010 and 164 in 2011 to 
fatalities in the line of duty, so it both reflects on the 
importance of your service, but it also reflects on the 
importance of this issue.
    The mandatory-wear policies that the Department of Justice 
requires for those who are the beneficiaries of this program 
raise the question of what a mandatory-wear policy should look 
like given the wide variety of circumstances that present 
themselves to a police officer in the course of his or her 
career, and I am wondering if you all have developed enough 
experience in this that you have some sense of what would be 
good ingredients in a mandatory-wear policy. Are there best 
practices? Are there things to be avoided that people have 
discovered when they wrote a mandatory-wear policy and then 
realized, oops, that is a circumstance we did not think of? 
What is kind of the state-of-the-art right now with respect to 
mandatory-wear policies, if you know?
    Chief Schirling. Thank you, Senator. It is good to see you 
again.
    I am not sure there is perfection out there relative to any 
law enforcement policy. As we continue to research best 
practice, what we have found, I think, is that, by and large, 
for officers engaged in day-to-day patrol functions, what are 
called uniformed divisions, patrol divisions, whatever they may 
be called in whatever part of the country, the officer is 
wearing polyester. By and large, for agencies that have chosen 
to go with a mandatory-wear route, that is sort of--the 
unanimity seems to be there. It does become much more 
complicated for officers in plainclothes and on undercover 
assignments and administrative assignments.
    What we have done and chosen to do based on looking at 
other folks' policies is, if you are in uniform serving an 
enforcement role, wear is mandatory. If you are in 
plainclothes, it is strongly encouraged in certain circumstance 
and it is mandatory in other circumstances. So it is event 
dependent.
    You are right in assessing that there is no way to ever 
ascertain all of the variables that could be in play, so it is 
really about creating the best categories and guidance possible 
with mandatory wear.
    Senator Whitehouse. And learning as we go what the best 
policies are.
    Chief Schirling. Exactly.
    Senator Whitehouse. Mr. Maurer.
    Mr. Maurer. Yes, in our work we did not assess how well the 
different mandatory policies were relative to one another. We 
did notice that the International Association of Chiefs of 
Police has developed a model policy that I think a lot of the 
jurisdictions are using as a starting point. That seemed to be 
something that was a good way to get things started, 
particularly the smaller jurisdictions. But I would agree with 
my colleague that I think it is important to have some 
flexibility in how it is used on a day-to-day basis.
    Chairman Leahy. Mr. Canterbury.
    Mr. Canterbury. Well, there are geographical issues that 
come into play. Standing in an intersection at 103 degrees, you 
have got to allow them to take them off. And I think that 
geography plays a role. In undercover positions obviously it 
would jeopardize. So they have to be somewhat flexible. But we 
support the mandatory wear for those people engaged in active 
law enforcement actions.
    Senator Whitehouse. Well, thank you. This is, I think, an 
issue we are going to need to keep an eye on as it goes 
forward, and I appreciate your interest in it.
    I have submissions for the hearing record from Sheriff Paul 
Fitzgerald, who is the president of the National Sheriffs 
Association; and from Chief Ron McBride of the International 
Association of Chiefs of Police; and from Dupont, who partners 
together with others in support of the Kevlar Survivors Club. 
Without objection, they will be made part of the record.
    [The information referred to appears as a submission for 
the record.]
    Senator Whitehouse. Senator Klobuchar, would you like 
another round?
    Senator Klobuchar. No. I just came back to say good-bye.
    Senator Whitehouse. In that case, let me close out by 
describing the words of a great Rhode Island law enforcement 
officer, Chief Vin Vespia, who had an illustrious State police 
career chasing mobsters around Rhode Island back in the mob 
days and has for decades now been the police chief of South 
Kingstown and is extremely well regarded by his peers. He was 
recently the emcee at the installation of Chief Pizarray, the 
new chief of the Rhode Island Municipal Police Chiefs' 
Association, and what Chief Vespia says is, simply stated, 
``Body armor is the most important article of police equipment 
that an officer can have.''
    So on that note, I will conclude the hearing with my 
gratitude to all of the witnesses and my appreciation to the 
Chairman for his relentless attention on this important topic.
    Senator Klobuchar. Thank you very much.
    Senator Whitehouse. The record will remain open for 1 week 
for any further submissions.
    [Whereupon, at 11:24 a.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
